<html>
<title> - CONFLICT MINERALS TRADE ACT; INTERNATIONAL MEGAN'S LAW OF 2010; EXTENDING IMMUNITIES TO THE OFFICE OF THE HIGH REPRESENTATIVE AND THE INTERNATIONAL CIVILIAN OFFICE IN KOSOVO ACT OF 2010; LORD'S RESISTANCE ARMY DISARMAMENT AND NORTHERN UGANDA RECOVERY ACT OF 2009; AND GLOBAL SCIENCE PROGRAM FOR SECURITY, COMPETITIVENESS, AND DIPLOMACY ACT OF 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
    CONFLICT MINERALS TRADE ACT; INTERNATIONAL MEGAN'S LAW OF 2010; 
 EXTENDING IMMUNITIES TO THE OFFICE OF THE HIGH REPRESENTATIVE AND THE 
INTERNATIONAL CIVILIAN OFFICE IN KOSOVO ACT OF 2010; LORD'S RESISTANCE 
 ARMY DISARMAMENT AND NORTHERN UGANDA RECOVERY ACT OF 2009; AND GLOBAL 
  SCIENCE PROGRAM FOR SECURITY, COMPETITIVENESS, AND DIPLOMACY ACT OF 
                                  2010

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                H.R. 4128, H.R. 5138, H.R. 5139, S. 1067
                             and H.R. 4801

                               __________

                             APRIL 28, 2010

                               __________

                           Serial No. 111-92

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
56-199                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85e2f5eac5e6f0f6f1ede0e9f5abe6eae8ab">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>Until 5/5/10 deg.
                   Richard J. Kessler, Staff Director
           Yleem Poblete, Republican Staff Director<greek-l>
         Jasmeet Ahuja, Professional Staff Member deg.<greek-l>
       David Fite, Senior Professional Staff Member deg.<greek-l>
          Jessica Lee, Professional Staff Member deg.<greek-l>
     Alan Makovsky, Senior Professional Staff Member deg.<greek-l>
   Pearl Alice Marsh, Senior Professional Staff Member deg.<greek-l>
     Peter Quilter, Senior Professional Staff Member deg.<greek-l>
      Edmund Rice, Senior Professional Staff Member deg.<greek-l>
      Daniel Silverberg, Senior Deputy Chief Counsel deg.<greek-l>
         Amanda Sloat, Professional Staff Member deg.<greek-l>
                Kristin Wells, Deputy Chief Counsel deg.
   Shanna Winters, General Counsel and Senior Policy Advisor<greek-l>
        Brent Woolfork, Professional Staff Member deg.<greek-l>
         Robert Marcus, Professional Staff Member deg.<greek-l>
          Diana Ohlbaum, Senior Professional Staff Member deg.
         Laura Rush, Professional Staff Member/Security Officer
   Genell Brown, Senior Staff Associate/Hearing Coordinator<greek-l>
                     Riley Moore, Deputy Clerk deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 4128, To improve transparency and reduce trade in conflict 
  minerals, and for other purposes...............................     2
  Amendment in the Nature of a Substitute to H.R. 4128...........   108
H.R. 5138, To protect children from sexual exploitation by 
  mandating reporting requirements for convicted sex traffickers 
  and other registered sex offenders against minors intending to 
  engage in international travel, providing advance notice of 
  intended travel by high interest registered sex offenders 
  outside the United States to the government of the country of 
  destination, requesting foreign governments to notify the 
  United States when a known child sex offender is seeking to 
  enter the United States, and for other purposes................    31
H.R. 5139, To provide for the International Organizations 
  Immunities Act to be extended to the Office of the High 
  Representative in Bosnia and Herzegovina and the International 
  Civilian Office in Kosovo......................................    90
S. 1067, To support stabilization and lasting peace in northern 
  Uganda and areas affected by the Lord's Resistance Army through 
  development of a regional strategy to support multilateral 
  efforts to successfully protect civilians and eliminate the 
  threat posed by the Lord's Resistance Army and to authorize 
  funds for humanitarian relief and reconstruction, 
  reconciliation, and transitional justice, and for other 
  purposes.......................................................    92
H.R. 4801, To establish the Global Science Program for Security, 
  Competitiveness, and Diplomacy, and for other purposes.........   150
  Amendment in the Nature of a Substitute to H.R. 4801 offered by 
    the Honorable Howard L. Berman...............................   170

                                APPENDIX

Hearing notice...................................................   196
Hearing minutes..................................................   197
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................   200
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................   202
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statements.....................   206
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Prepared statement....................   208

    CONFLICT MINERALS TRADE ACT; INTERNATIONAL MEGAN'S LAW OF 2010; 
 EXTENDING IMMUNITIES TO THE OFFICE OF THE HIGH REPRESENTATIVE AND THE 
INTERNATIONAL CIVILIAN OFFICE IN KOSOVO ACT OF 2010; LORD'S RESISTANCE 
 ARMY DISARMAMENT AND NORTHERN UGANDA RECOVERY ACT OF 2009; AND GLOBAL 
  SCIENCE PROGRAM FOR SECURITY, COMPETITIVENESS, AND DIPLOMACY ACT OF 
                                  2010

                              ----------                              


                       WEDNESDAY, APRIL 28, 2010

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:22 a.m. in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee shall come to order. I think 
a quorum is present. Today we have five bills listed on the 
agenda. I understand that the committee has a consensus on four 
of the bills, and the Minority has requested we move en bloc.
    The fifth bill, H.R. 4801, has pending amendments. I will 
just call up the four bills all at once and then call up H.R. 
4801 separately.
    Pursuant to notice, I ask unanimous consent to call up en 
bloc H.R. 4128, the Conflict Minerals Trade Act; H.R. 5138, the 
International Megan's Law of 2010; H.R. 5139, Extending 
Immunities to the Office of the High Representative and the 
International Civilian Office in Kosovo Act of 2010; and S. 
1067, the Lord's Resistance Army Disarmament and Northern 
Uganda Recovery Act of 2009.
    [The information referred to follows:]<greek-l>H.R. 
4128 deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>H.R. 5138 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>H.R. 5139 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>S. 1067 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Without objection, H.R. 5138, H.R. 5139 
and S. 1067 are considered as read. Without objection, the 
amendment in the nature of a substitute for H.R. 4128--that is 
the Conflict Minerals Trade Act--before the members will be 
considered as base text for purposes of amendment, and that 
will be considered as read and will be open for amendment at 
any point. A summary of the amendment in the nature of a 
substitute is on each member's desk.
    [The amendment of H.R. 4128 follows:]<greek-l>ANOS H.R. 
4128 deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. Without objection, I may recess the 
committee from time to time. I now recognize myself for as much 
time as I may consume to make an opening statement.
    For more than a decade, we have been hearing about the 
tragic situation in the Democratic Republic of the Congo: Mass 
killings of civilians. Rape used as a weapon of war. Child 
soldiers forced to the front lines.
    H.R. 4128, the Conflict Minerals Act, is one important step 
toward ending a conflict in Congo that by some estimates has 
killed more than 5 million people.
    The bill establishes a mechanism to track minerals mined in 
the DRC that end up in products like cell phones and laptops, 
and will help us cut off financing to some of the planet's most 
brutal armed groups. I am now supposed to hold up Marissa's 
cell phone and say in this cell phone is tin and coltan, both 
conflict minerals coming from the Congo.
    In many respects, this legislation builds on the work 
already begun by some American companies. H.R. 4128 will make 
those efforts more effective by creating a level playing field 
for all companies that do business in the United States.
    The American people don't want to put money in the hands of 
brutal thugs in the DRC, and neither do American companies. For 
less than 1 cent per cell phone, this bill will allow American 
consumers to make responsible choices, and help put the 
warlords out of business. I thank the author of the bill, Mr. 
McDermott, and my colleague Don Payne, chairman of the Africa 
Subcommittee, for all their hard work on these issues, and I 
encourage my colleagues to support the bill.
    I would like to also commend Chris Smith for his hard work 
on H.R. 5138, the International Megan's Law of 2010, and I mean 
hard work. Many child sex offenders are traveling 
internationally or reside abroad because the laws against sex 
acts with minors are weaker or rarely enforced in particular 
countries.
    International Megan's Law would establish a system for 
providing advance notice to foreign countries when a convicted 
child sex offender travels to that country and imposes a 
registration requirement for child sex offenders from the 
United States who reside abroad.
    Worldwide, over 2 million children are sexually exploited 
each year through trafficking, prostitution and child-sex 
tourism. We all know the devastating emotional, physical and 
psychological effects on these child victims. We need to do all 
we can to prevent these predators from circumventing U.S. laws 
to prey on children in foreign countries. I encourage my 
colleagues to support this bill.
    H.R. 5139, Extending Immunities to the Office of the High 
Representative and the International Civilian Office in Kosovo 
Act of 2010, is a technical fix to ensure legal protection for 
employees of both the Office of the High Representative (OHR) 
in Bosnia and Herzegovina, and the International Civilian 
Office (ICO) in Kosovo.
    The bill, which adds the OHR and the ICO to the 
International Organization Immunities Act, will ensure that 
Americans serving in these important Balkans-based 
organizations will be protected from politically motivated 
litigation in the United States arising from their official 
duties and only their official duties.
    The United States must protect its diplomats who serve in 
international organizations, often at great personal risk and 
sacrifice, from financially and personally ruinous litigation 
while also preserving its ability to use informal institutions 
in the conduct of foreign policy. Finally, we have S. 1067, the 
Lord's Resistance Army Disarmament and Northern Uganda Recovery 
Act of 2009. I would like to thank the gentleman from 
Massachusetts, Mr. McGovern, for his work on the House version 
of this bill.
    This legislation affirms the policy of the United States to 
work with regional governments toward a comprehensive and 
lasting resolution to the conflict in northern Uganda.
    It further requires a strategy to support the disarmament 
of the Lord's Resistance Army, and support for humanitarian 
efforts and recovery and reconstruction in areas of the 
Democratic Republic of Congo, Southern Sudan and the Central 
African Republic affected by Lord's Resistance Army activity.
    And it calls on the President to support efforts by the 
people of northern Uganda and the Government of Uganda to 
promote transitional justice and reconciliation on both local 
and national levels.
    It should be noted that this bill does not include any 
earmarks.
    I now yield back my time, and I turn to the ranking 
Republican member, Ileana Ros-Lehtinen, for her opening 
statement.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. It is a 
pleasure to work with you and for our staff to work together in 
a bipartisan manner in a very open process to bring these bills 
to our committee again, so I thank you, Mr. Chairman, and I 
thank your most excellent staff.
    I support the en bloc consideration of the legislative 
items before us. Let me begin by applauding the years of work 
by our colleague, Congressman Chris Smith of New Jersey, in 
making the International Megan's Law a reality. Chris is a 
tenacious fighter for and a defender of the most vulnerable of 
our population, and I am so very proud of the work that he has 
done. It has taken a long time, and this is a happy day.
    I was proud to be an original co-sponsor of its 
predecessor, H.R. 1623, and also of this new text, which was 
the result of months of bipartisan negotiation that Mr. Smith 
had with the Judiciary Committee, with input from relevant 
Executive Branch agencies.
    The International Megan's Law is an important and long 
overdue instrument to help protect children from dangerous 
sexual offenders who use the anonymity afforded by 
international travel to hide their dangerous and dehumanizing 
exploitation. By requiring convicted sexual offenders to report 
upcoming international travel and creating a nexus for 
communication between local, national and international 
authorities, the International Megan's Law will help curb 
international sex tourism by convicted predators. So thank you, 
Mr. Smith, for your work on this bill.
    I am also proud, Mr. Chairman, to be adding my name as a 
co-sponsor of the revised text of H.R. 4128, the Conflict 
Minerals Trade Act, which is being considered today. This 
important human rights legislation will help disrupt the 
illegal mineral trade that funds and fuels the bloody conflict 
in the Democratic Republic of the Congo.
    There are other measures being considered en bloc that, 
while not perfect, advance issues of great importance to our 
members and our Nation. I remain committed to seeing Senate 
bill S. 1067 enacted into law as quickly as possible to help 
end the Lord's Resistance Army's 23-year legacy of death and 
despondency in northern Uganda and the surrounding region.
    While I regret that the Senate failed to consider the 
earmark moratorium adopted by House Republicans despite 
repeated attempts to highlight this issue, I appreciate the 
cooperative efforts to make clear that the bill before us today 
does not contain an earmark in order to help facilitate the 
progress of this important human rights measure as well.
    Another bill, H.R. 5139, considered en bloc will allow the 
President to extend International Organizations Immunity Act 
protection to the Office of High Representative, the High 
Representative in Bosnia and the International Civilian Office 
in Kosovo. American personnel who work for those offices 
deserve the same protection against politically motivated 
nuisance lawsuits that are enjoyed by more than 80 other 
international organizations covered by the Act.
    While we support the agreed upon text, Mr. Chairman, I 
would like to underscore our concerns about the State 
Department's rush to secure the authorities in this bill while 
failing to respond in a timely manner to inquiries made on 
specific provisions, background and the need for this 
legislation. The Department needs to be placed on notice that 
the Congress, and specifically this committee, will not 
continue to come to the Department's rescue at the last minute, 
when approached by the Department with a request for a fix on a 
particular issue or authority.
    This committee expects the Department to come into 
compliance with its statutory obligations under a number of 
U.S. laws, including the Iran, North Korea and Syria 
Nonproliferation Act (INKSNA) before any further requests such 
as H.R. 5139 are made of this committee. So please come forward 
with the repeated request that we have made for information 
about INKSNA before coming up for further requests.
    With that, Mr. Chairman, I thank you for the time and look 
forward to the continued markup.
    Chairman Berman. The gentlelady yields back the balance of 
her time, and before I recognize the gentleman from New Jersey, 
I just will yield to myself to express the same concern 
expressed by the ranking member regarding the difficulty of 
getting the State Department to respond.
    The need for this legislation is coming not from the State 
Department, but from the people who work in those 
organizations. They have a clear and compelling case, and the 
State Department was very slow to respond on a variety of the 
legal issues. In fact, it wasn't until very recently that we 
got the responses we had been trying to get for a long time.
    At this point I am pleased to recognize the chairman of the 
Africa Subcommittee, the gentleman from New Jersey, Mr. Payne, 
who has spent a great deal of time on at least two of these 
measures that are before us in this en bloc motion.
    Mr. Payne. Thank you very much, Mr. Chairman and ranking 
member. Let me begin by offering an amendment in the nature of 
a substitute to H.R. 4128.
    Chairman Berman. Would the gentleman yield?
    Mr. Payne. Yes.
    Chairman Berman. We have already put that in as the base 
text for this.
    Mr. Payne. Oh, great.
    Chairman Berman. So it is the bill with that amendment in 
the nature of a substitute that is now before us.
    Mr. Payne. Thank you very much. Thanks for that 
clarification.
    I certainly would like, as I mentioned, to thank the 
chairman and the ranking member and the full committee staff on 
both sides of the aisle for working with me and my staff on 
this measure, the conflict minerals bill. I would also 
especially like to thank Mr. McDermott from the Ways and Means 
Committee for a strong interest and in the work of his staff as 
we work together on this bill.
    The Democratic Republic of Congo, the DRC, has been in 
political turmoil for decades. In the early 1900s, the region 
was King Leopold's playground. In the 1960s, a nationalist 
movement led by Patrice Lumumba won Parliamentary elections in 
the Congo. Lumumba was considered a threat as a new leader in 
Africa and was later assassinated by Belgium troops, at that 
time supported by the United States Government.
    In May 1997, the Alliance of the Democratic Forces for the 
Liberation of Congo Zaire, the AFDL, with the support of Rwanda 
and Uganda, marched into Kinshasa and ousted long-time dictator 
Mobutu Sese Seko. By August 1998, conflict erupted between 
Kabila and the Congolese forces supported by Rwanda. Angola, 
Namibia and Zimbabwe joined the fighting in support of Kabila. 
The Second Congolese War, often referred to as the African 
World War, contributed to displacement of many civilians, the 
destruction of towns and the death of millions.
    Much progress has been made over the past several years in 
moving the DRC from political instability and civil war to 
relative stability and democratic rule. However, Eastern Congo 
remains marred by civil strife, and conflict minerals have been 
the source of much of the devastating violence in the region.
    Although the government in Kinshasa has attempted to 
control the region, there is, for example, no direct road from 
the capital of Kinshasa to the eastern region of the country, 
therefore creating very, very difficult transportation problems 
and therefore making governance much more difficult.
    The Conflict Minerals Trade Act promotes peace and security 
in the eastern region of the Democratic Republic of Congo by 
requiring the following: One, that the State Department create 
a map of the DRC showing mines and areas that are under the 
control of militant groups involved in human rights violations;
    That the Department of Commerce publishes a potential 
conflict goods list, products that may contain conflict 
minerals, and a list of international auditors who are approved 
to do audits of processing facilities to determine if conflict 
materials have been processed there in that area;
    Three, that products containing conflict material from 
facilities that have not been audited may not be imported into 
the United States of America; and, four, the U.S. and other 
partner nations help build capacity of the Congolese 
Government.
    The bill, while it will not change the situation in the DRC 
overnight, is a strong effort to build transparency in the 
mining sector. Our aim is to help bring about an end to the 
suffering of the people of Eastern Congo. As has been 
mentioned, I am offering this amendment in the nature of a 
substitute today to deal with some of the finer details of the 
bill.
    Let me just say that I have been to the Eastern Congo on at 
least five occasions, have during the conflict time met with 
some of the warlords when they were head of militias, Bimba and 
Robetta. We have seen much progress made from those days to the 
present. However, there are still problems.
    We have this bill, which follows a similar bill that I 
urged and pushed and we introduced years ago on conflict 
diamonds where the Kimberley Process now processes diamonds, 
and if they are not certified then those diamonds may not be 
sold on the marketplace and so we are expecting this particular 
bill to have the same result as it relates to tin and coltan 
and other valuable minerals that go into the processing.
    And so I would like to once again appreciate the support of 
Chairman Berman and Ranking Member Ros-Lehtinen. They 
contributed to the provisions in the bill. We worked closely 
with them, and the bill will ensure that we provide a framework 
to assist the Government of the DRC.
    On a number of occasions I have discussed this with 
President Kabila, my five or six meetings with him during the 
past 7 or 8 years, and we hope that this will help him in 
trying to bring under control that eastern region of this 
country. So I urge the members to support this amendment, H.R. 
4128, and look forward to moving this bill to the Floor.
    Secondly, I would just like to briefly urge members to 
support S. 1067, the Lord's Resistance Army's Disarmament in 
Northern Uganda Recovery Act of 2009. This bill seeks to bring 
an end to the more than 20 years of terror propagated by the 
Lord's Resistance Army, known as the LRA, in northern Uganda.
    The bill calls for an interagency strategy to stop the 
LRA's reign of terror which has spread to neighboring DRC, 
South Sudan and the Central African Republic and to provide 
critical support to the innocent people, particularly the 
children whose lives have been devastated by Joseph Kony and 
those who support him.
    Mr. Chairman, as you know, I had reservations about one 
section of the bill which says we should restrict assistance to 
the Government of Uganda if certain steps are not taken. I 
would like to say for the record the Government of Uganda has 
made significant efforts to address the havoc wrecked by the 
LRA, and they have done a tremendous amount in trying to bring 
this under control.
    But in the interest of moving the bill forward I agree to 
go ahead with the Senate version, but I would like to thank the 
chairman and Representative McGovern for working with me on 
alternative language to the House bill. I do support the Senate 
bill.
    However, as I have mentioned, to hold punitive measures 
against a government who is trying to also deal with this 
situation. They have even, as you may recall, had the U.N. 
agree to have amnesty for Kony, which many of us thought was a 
horrible thing to do for such a terrible criminal.
    However, if it would end the problem we went along with it, 
but Kony refused to go along with that and the ICC still has 
the indictment out for him. So I would be reluctant to penalize 
the Government of Uganda because of Kony, and that is what it 
says in the bill, but hopefully we can work on that to have 
that provision altered.
    Finally, I just want to commend my colleague from New 
Jersey, Mr. Smith, and strongly urge the support of H.R. 5138, 
the International Megan's Law of 2010, which protects children 
from sexual exploitation by establishing an advance reporting 
requirement for registered sex offenders traveling 
internationally and provides a mechanism for notification and 
destination countries for traveling sex offenders who pose a 
risk to children. I certainly commend Congressman Smith for his 
leadership on the bill and Mr. Berman and Ms. Ros-Lehtinen for 
moving this forward.
    As you know, Megan's Law, which was first passed in our 
home state of New Jersey in 1994 and later adopted by Congress 
in 1996, protects children from sex exploitation through 
community notification by identifying the whereabouts of sex 
offenders. International Megan's Law will protect children by 
preventing in some circumstances and monitoring in other cases, 
sex offenders who pose a risk of committing a sex offense 
against a minor while traveling abroad.
    The United States has a moral obligation to strengthen 
international cooperation against sexual exploitation of a 
minor and must lead the global community in an effort to save 
potential children, child victims, by notifying other countries 
of U.S. sex offenders who pose a high risk of exploiting 
children. I strongly urge my colleagues to support this 
legislation. It will protect all children, both nationally and 
internationally, from sex offenders and sexual exploitation.
    With that, Mr. Chairman, thank you for the time. I yield 
back.
    Chairman Berman. The gentleman yields back, and now to the 
other gentleman from New Jersey, Mr. Smith, for 5 minutes.
    Mr. Smith. Mr. Chairman, I move to strike the last word, 
and I want to thank you----
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Smith [continuing]. For bringing before this committee 
all of these bills, but in particular the International Megan's 
Law, H.R. 5138, which as you and others have pointed out, 
establishes a model framework for intergovernmental 
notifications when a dangerous child sex offender travels 
internationally.
    International Megan's Law works synergistically with our 
efforts to combat human trafficking, in this case by providing 
information about high risk sex offenders, child sex offenders. 
These are people who have been convicted, who unfortunately, 
today, we have every reason to believe as the evidence is 
overwhelming, travel abroad in order to exploit children. This 
legislation will work in a hand and glove manner with our 
already enacted Trafficking Victims Protection Act and other 
similar pieces of legislation.
    I do want to thank you, Mr. Chairman, and Ileana Ros-
Lehtinen for your leadership on this bill. I want to thank Don 
Payne, the prime co-sponsor, for his work on this. I deeply 
appreciate it. As he correctly pointed out, the International 
Megan's Law follows the Megan's Law, which passed in New Jersey 
back in the early 1990s.
    Megan Kanka was a little girl, a 7-year-old girl, who 
actually lived in my home town. She was severely sexually 
assaulted and then brutally murdered by a convicted pedophile 
who had already spent time, more than a dozen years, in prison. 
He lived across the street. Nobody knew his background.
    He invited her into his home. He said, ``Come in and see my 
puppy.'' He had a little dog. And then he brutally raped and 
murdered her and nobody knew. Nobody knew who this person was. 
That led to enactment in New Jersey and then throughout all 50 
states of the Megan's Law, which has had the ability to deter. 
Knowledge is power to deter, and now we are trying to extend 
that internationally when people go on these sex tourism 
efforts to exploit children.
    I especially want to thank Maureen and Richard Kanka, who 
founded the Kanka Foundation, Megan's legacy. They have taken a 
horrific tragedy and have become national and now international 
proponents of Megan's Law as a way of trying to mitigate these 
horrific crimes.
    Mr. Chairman, despite the fact that 137 countries are party 
to the optional protocol to the Convention on the Rights of the 
Child on the sale of children, child prostitution and child 
pornography abound, including in the United States. Little is 
being done internationally to comply with the obligation to 
prevent these acts in the context of the horrific phenomena of 
child sex tourism.
    As evidenced by the troubling information in the State 
Department's Annual Trafficking in Persons Report, child sex 
tourism is a serious and widespread problem. Congress has 
passed legislation to bring to justice those Americans who are 
caught sexually exploiting children abroad, but we have yet to 
institute measures that will protect children from suffering 
this exploitation in the first place and its lifelong 
consequences.
    H.R. 5138 would implement one measure that is readily 
apparent: To identify and notify foreign governments of 
international travel by known dangerous sex child offenders. 
The move to such a formalized agreement is exemplified in a 
case in April 2008. A lifetime registered sex offender from the 
U.K. traveled to the U.S. with the intention of living with a 
woman he had communicated with on the internet and her young 
daughter. It was only after an alert of Interpol London that 
U.S. officials learned about the criminal history of this man 
and refused to allow him to enter the country.
    There have been instances where ICE officials most recently 
in California learned of a group of men who were going to 
travel to South Korea, all of them sex offenders, all of them 
with grave MOs as to what they probably intended to do in South 
Korea. We notified South Korea. They didn't grant a visa and 
they were not allowed to commit what we believe would have been 
crimes in South Korea against children.
    U.S. Immigration and Customs Enforcement, together with 
other U.S. and foreign law enforcement agencies, are making a 
sincere, but occasional, effort to share information. It is all 
being done on an ad hoc basis through Interpol and other 
available means regarding traveling child sex offenders. A 
legal structure is needed to systematize and coordinate these 
detection and notification efforts.
    The International Megan's Law would provide this legal 
structure. It establishes a mechanism for U.S. law enforcement 
agencies to identify child sex offenders who pose a danger to 
children in a destination country and to notify that country 
about this child sex offender's travel intentions. It also 
includes a sense of the Congress that the President can 
negotiate agreements----
    Chairman Berman. The time of the gentleman has expired. 
Without objection, the gentleman has 2 additional minutes.
    Mr. Smith. I appreciate that. Thank you, Mr. Chairman.
    It also includes a sense of Congress that the President, as 
you know, can negotiate agreements with other governments to 
establish bilateral systems to receive and transmit notices 
about dangerous child sex offenders so that children in our own 
country will be better protected from known predators.
    The bill also establishes a registration requirement for 
U.S. child sex offenders when they are residing abroad. 
Currently there is no legal mechanism to identify and track 
Americans convicted of child sex offenses overseas or to 
continue tracking the location and activities of a child sex 
offender if they leave the United States for more than 30 days. 
H.R. 5138 will enable the U.S. diplomatic missions to notify 
U.S. law enforcement when a child sex offender who is required 
to register enters or re-enters the United States.
    I would ask that my full statement be made a part of the 
record.
    Chairman Berman. Without objection.
    Mr. Smith. I would like to thank the many very dedicated 
staff on both sides of the aisle who worked so hard on this, 
beginning with Sheri Rickert. I would also like to thank 
Kristin Wells, who used to be with the committee who did 
yeoman's work on this, Janice Kaguyutan, Doug Anderson, Shanna 
Winters, Rick Kessler, who has been working with us very 
closely, Stephanie Gidigbi and a large group of people on the 
Judiciary Committee as well because we have been engaging in 
negotiations there as well. Thank you, Mr. Chairman.
    Chairman Berman. Will the gentleman yield?
    Mr. Smith. I will be happy to yield.
    Chairman Berman. I just want my colleagues on the committee 
to understand what you have done. You have gotten a bill like 
this through and with the approval and sign off and the waiving 
of jurisdiction of the staff of the House Judiciary Committee. 
Not a minor achievement.
    Mr. Smith. Thank you very much, and I do appreciate it very 
much.
    Chairman Berman. The time of the gentleman has expired. Any 
member wish to be recognized to strike the last word or offer 
an amendment? The gentleman from Texas, Mr. Poe?
    Mr. Poe. Mr Chairman, I move to strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Poe. Thank you very much, Mr. Chairman. The 
International Megan's Law, H.R. 5138, is very important to our 
country. As founder and co-chair of the Victim's Rights Caucus, 
along with my friend, Mr. Costa, from California, I strongly 
urge support of H.R. 5138.
    Unfortunately, unlawful sex tourism is big international 
business. One million children enter the multi-billion-dollar 
commercial sex every year. One million kids. Overall there are 
2 million children that are enslaved in the global commercial 
sex trade.
    These children are not statistics. They are real people. 
They are boys and girls who most often grow up in very poor 
families and broken homes from countries all over the world. 
They are lured away by recruiters who promise them jobs in 
another city. They are falsely imprisoned under the belief that 
they are going to go to some other country, have a job and send 
money back home to their families.
    I recently was in the Ukraine and Bulgaria discussing this 
issue, and in some ways it is almost epidemic in the former 
eastern European bloc how young women primarily are lured away 
and then many of them never seen again because they are put 
into the sex trade.
    When they leave home they are forced into prostitution, and 
studies show that child prostitutes serve between 2 and 30 
clients a week, which means they serve anywhere between 100 and 
1,500 clients per year. I don't like calling them clients. I 
like calling them criminals, but that is what they are under 
the terminology.
    Those who resist or fail to earn enough money, the people 
who have procured them beat these children until they go back 
to work, bringing in this filthy lucre. If they don't die from 
an STD many of them fall into drug use, and without any hope or 
any other way many of them commit suicide.
    The most startling statistic, Mr. Chairman, is the fact 
that Americans make up 25 percent of the world's sex trade 
tourists. In other words, all of these going on in foreign 
countries, 25 percent of the clients are Americans. Many of 
them have gone abroad so that they can exploit children. That 
is to our shame. We need to deal with that issue.
    The International Megan's Law of 2010 is another tool to 
help free children and stop the child sex tourism. It makes it 
harder for Americans with a known history of the sex offender 
to sexually abuse children in another country because our laws 
have gotten stringent enough, these sex offenders who go to 
prison, and most of them statistically repeat once they leave 
the penitentiary. They decide to go to a foreign country where 
laws are different and they are less likely to be apprehended.
    It says that if you abuse children here in the United 
States, you have to tell the U.S. Government when and where you 
are going so we can warn other countries this criminal is 
coming to your country and he is a known child molester. It 
also says that if a country knows of a sex offender in their 
country we want to know what their plans are if they come to 
the United States.
    The point of this law is to shine light on an industry that 
thrives in the darkness, in the depths of depravity. If you 
have a known history of sexually abusing children in our 
Nation, no longer can you just get on an airplane, go abuse 
other children in another country and come back home. I hope 
that means that a sex offender will think twice before 
exploiting other kids in foreign nations.
    I hope this law puts the slimy pimps that prey on helpless 
children out of business, and this will help do that. They make 
profits by exploiting kids in the international sex tourism 
business. Hopefully children around the world, less of them 
will be caught in the sex trade and slavery. Children are 
victims of crime. Their freedom is stolen, their dignity, and 
their voices must be heard here in the United States and we 
must do what we can to help other kids throughout the world.
    Lastly, I want to point out that once a person, a child, 
usually young women, are put into this atmosphere they never 
recover. They never get out of it, and those that do have 
tremendous physical, emotional and mental problems because of 
the sex trade tourism that they have been kidnapped and put 
into.
    So I congratulate my friend from New Jersey for sponsoring 
this, and I totally support it. I yield back the remainder of 
my time.
    Chairman Berman. The time of the gentleman has expired. Who 
else seeks recognition? The gentlelady from Texas. For what 
purpose do you seek recognition?
    Ms. Jackson Lee. To ask unanimous consent to speak for 5 
minutes.
    Chairman Berman. Without objection. The gentlelady moves to 
strike the last word and is recognized for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, I want to thank you for your 
leadership and that of the ranking member for collecting these 
very important initiatives going forward. I will speak briefly 
about each of the initiatives that I am supporting.
    The Conflict Minerals Trade Act has just really been 
galvanized by recent media stories about a high profile model 
that may have been either the victim or engaged or associated 
with allegations of conflict diamonds as it relates to the 
trial of Charles Taylor. It goes on and on and on. And so I 
think this legislation is long overdue, and I am very glad that 
businesses such as LG Electronics and Motorola and advocacy 
groups such as Oxam and Genocide Intervention Network, Global 
Witness are in support of this.
    I received a letter from Corinna Gilfillan, who is with 
Global Witness, who indicated that the trade in conflict 
minerals by armed groups in the Eastern DRC has fueled horrific 
human rights abuses, including widespread killings of unarmed 
civilians, rape, torture, looting and Federal displacement of 
hundreds of thousands of people.
    Might I just say that I wish that we were as forceful, 
though I know that there was much opposition, during the 
Liberian War where these conflict minerals are clearly in play. 
So I support this legislation and look forward to its passage.
    In addition, as the co-chair of the Congressional Caucus I 
am enthusiastically supporting H.R. 5138 and thank the co-
sponsors and authors for the wisdom. I was a strong supporter 
and advocate of Megan's Law, and I believe that this is key in 
saving the lives of children.
    I am reminded of visits early on in my congressional career 
to Bangladesh and to several other countries. I don't want to 
in essence call the roll, but countries who hopefully have made 
great strides in meeting with some of the Bangladesh leaders. I 
know that they have. Thailand, for example, with the horrific 
story of a year or 2 ago of individuals, men, who have left 
their country to abuse children.
    This is intolerable and unacceptable, and if the Congress 
cannot stand before the major components of this bill, which is 
the establishment of a system for providing advance notice to 
foreign countries when a sex offender who poses a high risk is 
traveling and the imposition of a registration requirement for 
child offenders from the United States who reside abroad, what 
can we do?
    So I am very grateful that we have put that legislation 
forward, and I do support it to avoid the result of HIV AIDS 
and other abuses, psychological trauma, disease, unwanted 
pregnancy that comes about through this horrific, horrible 
crime.
    H.R. 5139, extending immunities to the Office of the High 
Representative Act, is a technical fix of which I support, and 
then in listening to my colleague from New Jersey, Chairman 
Payne, I want to associate myself on S. 1067 with his comments, 
his broad comments, the Lord's Resistance Army Disarmament in 
Northern Uganda Recovery Act.
    We have spent time in Uganda, and certainly its President 
has had a long tenure. The rebel guerrilla army operating in 
Uganda and parts of Sudan, the LRA, has come to be known for 
its mass atrocities, and this seeking of disarmament to finally 
bring peace to this area is important.
    I do think we should take into consideration who is to 
blame, but it should be noted that in this battle injuries 
targeted government troops, more than 200,000 lives have been 
taken, and millions of civilians have been displaced from their 
homes. Twenty thousand children have been abducted, raped, 
maimed and killed. This is long overdue. This legislation 
authorizes the President to provide additional assistance to 
respond to the humanitarian needs.
    Let me also say that I support the Global Science Program 
for Security, Competitiveness and Diplomacy Act, H.R. 4801. 
Having been a 12-year member of the Science Committee, this is 
an excellent idea.
    And I thank you for accepting my amendment, which expands 
it to Subsaharan countries that may have been a little bit more 
economically able because, for example, South Africa is a 
country that has an enormous range in science. Many of those 
individuals would be left out if they were not able to engage 
in this process of a scientific exchange. Science I believe is 
the work of the twenty-first century. We are in the twenty-
first century, and we should leave no one out.
    Mr. Chairman, I would like to ask for approval and passage 
of the bills that I have just commented on, and I thank the 
committee for yielding. I yield back.
    Chairman Berman. The time of the gentlelady has expired.
    Hearing no further amendments, I ask unanimous consent that 
the amendment in the nature of a substitute to H.R. 4128, the 
Conflict Minerals Trade Act, is considered adopted, and without 
objection I further ask unanimous consent to report en bloc the 
four bills favorably to the House, but as separate bills.
    H.R. 5138, International Megan's Law of 2010; H.R. 5139, 
Extending Immunities to the Office of the High Representative 
Act of 2010; S. 1067, the Lord's Resistance Army Disarmament 
and Northern Uganda Recovery Act of 2009 will each be ordered 
reported without amendment. H.R. 4128, the Conflict Minerals 
Trade Act, will be ordered reported with an amendment in the 
nature of a substitute just adopted.
    I move that these four bills as described be reported 
favorably to the House. All those in favor say aye.
    [Chorus of ayes.]
    Chairman Berman. All opposed say no.
    [Chorus of noes.]
    Chairman Berman. In the opinion of the chair, the ayes have 
it and the motion is agreed to without objection. The staff is 
authorized to make any technical and conforming changes. That 
takes care of four of the five bills. I thank the members for 
being here, and I ask you to stay for one more bill, which I 
really like because it is my bill.
    Pursuant to notice I call up the final bill, H.R. 4801, the 
Global Science Program for Security, Competitiveness and 
Diplomacy Act of 2010.
    [H.R. 4801 follows:]<greek-l>H.R. 4801 deg.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Berman. Without objection, the amendment in the 
nature of a substitute before the members will be considered as 
base text for purposes of amendment, will be considered as read 
and will be open for amendment at any point. A summary of the 
amendment in the nature of a substitute is on each member's 
desk.
    [The amendment of H.R. 4801 follows:]<greek-l>ANOS H.R. 
4801 deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Berman. I yield myself 5 minutes to explain the 
amendment in the nature of a substitute.
    H.R. 4801 bolsters U.S. science diplomacy programs by 
establishing a Global Science Program to provide grants to U.S. 
and foreign scientists. The bill also authorizes the Science 
Envoys Program introduced by President Obama in his Cairo 
speech last June.
    Science diplomacy--the use of scientists, engineers and 
researchers to engage with their foreign counterparts--is a 
proven means of engaging foreign populations, improving the 
image of the United States and fostering cooperation with 
international partners. The amendment in the nature of a 
substitute addresses concerns of the National Science 
Foundation and clarifies the management structure of the Global 
Science Program.
    I now turn to the ranking Republican member, Ileana Ros-
Lehtinen, for her statement.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Although 
I question the wisdom of establishing new programs during a 
time of trillion-dollar deficits and economic challenges for 
average Americans, I note that this bill does not authorize 
funding beyond ``such sums.'' It is also my hope that hard-
pressed universities in the United States will be among the 
principal beneficiaries of this bill.
    However, I do have concerns regarding the possibility that 
this bill might undermine existing prohibitions against 
providing assistance to certain countries. For that reason, I 
would like to note for the record, as your staff has confirmed, 
that the text under consideration does not grant the Secretary 
of State authority to provide any assistance that is prohibited 
by any provision of current law.
    I support efforts to ensure that this legislation does not 
undermine U.S. security interests by inadvertently enabling 
foreign espionage efforts such as those previously outlined in 
the 2009 report of the U.S.-China Economic and Security Review 
Commission and many other such studies.
    Finally, Mr. Chairman, I would like to confirm that the 
committee intends to file a written report on this bill which 
will afford opportunities for further clarification and the 
filing of additional views should members deem it necessary.
    Chairman Berman. Would the gentlelady yield?
    Ms. Ros-Lehtinen. Yes, sir.
    Chairman Berman. The gentlelady is right. Nothing in this 
bill would allow assistance or grants or these kinds of 
programs in the science diplomacy field to go on with countries 
that are prohibited from getting assistance under other 
provisions of the Foreign Assistance Act, and if we need to we 
can even reaffirm that specifically within this provision with 
an amendment between now and the time this bill comes to the 
Floor.
    There will be a written report. We will definitely have a 
report on the legislation with an opportunity for additional 
views and confirming the concerns that you have raised.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman. Reclaiming my 
time, given your assurance I am now prepared to move this bill 
forward. Thank you, Mr. Chairman.
    Chairman Berman. The gentleman from Virginia, for what 
purpose do you seek recognition?
    Mr. Connolly. To strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Connolly. I thank the chair, and I just wanted to add I 
want to thank the chair for its leadership on this important 
legislation. While I certainly take the caveat of the ranking 
member seriously, I also believe that even in tough times, 
maybe especially in tough times, we need to always be looking 
at that scientific cutting edge.
    Technology is the competitive advantage of the United 
States, and I believe that trying to harness the scientific 
community through in part this mechanism in our State 
Department I think is a very important adjunct to uniform 
policy and to making sure we protect the U.S. competitive 
advantage in the global arena. So I was very pleased to offer 
an amendment to this bill and that the chairman has 
incorporated it into the substitute amendment establishing the 
Advisory Panel on International Scientific Cooperation.
    The district I represent, Mr. Chairman, is a very high tech 
district. This is the kind of thing that a lot of businesses, a 
lot of individuals from my district certainly and across the 
Nation want to see and want to see as a key part of our foreign 
policy moving forward, our diplomacy moving forward.
    So I want to thank the chairman for his leadership, and I 
look forward to supporting this legislation and I thank you for 
incorporating my amendment. I yield back.
    Chairman Berman. The gentleman yields back. The co-sponsor 
of this legislation has been a very wonderful person to work 
with on this issue. The gentleman from Nebraska, Mr. 
Fortenberry, seeks recognition, moves to strike the last word, 
and the gentleman is recognized for 5 minutes.
    Mr. Fortenberry. Well, thank you, Mr. Chairman, for your 
kind words, and thank you, Ranking Member Ros-Lehtinen, as well 
for your efforts today on this markup.
    But also I want to welcome the opportunity, as you have 
said, Mr. Chairman, to comment on the significance of the 
United States leadership and technology in the role of science 
and diplomacy and how this bill potentially furthers those 
efforts.
    For decades, the U.S. Government has supported the exchange 
program based on the premise that individuals of goodwill can 
make a difference to help build just societies that serve 
people with integrity. To the extent that the United States can 
better leverage its technical expertise through prudent public 
diplomacy and engage others to join our commitment in the 
service of very worthy goals, we may actually help deprive 
twisted ideologies and corrupt institutions elsewhere of the 
resources they might otherwise obtain by default to perpetrate 
misery and suffering around the world.
    And that is exactly what this bill seeks to do. Ours is an 
era of unprecedented scientific achievement that can either be 
directed for great good or devastating harm to all of humanity. 
The choices is ours, and I believe we must lead or others may 
lead us where we may not wish to go.
    Mr. Chairman, Albert Einstein once said that ``concern for 
man himself and his fate must always form the chief interest of 
all technical endeavor.'' He called on his fellow scientists to 
``never forget this in the midst of your diagrams and 
equations.''
    This is the kind of science that will lead to numerous 
benefits across every sector of human endeavor. This is the 
kind of science our public policy should support. Simply put, 
effective scientific collaboration that may, for instance, 
mitigate security risks posed by weapons of mass destruction or 
promote ethical research to benefit humanity, advancing goals 
that all Americans can proudly share, is a good thing.
    If one can collaborate effectively to divert energy and 
resources from let us say a potentially devastating 
catastrophic attack on civilians into a project that brings 
sanitation to dozens of rural villages or provides sustainable 
agriculture to help local communities take full ownership of 
their nutritional needs or lead to a cure or treatment of a 
disease that has thus far received far too little attention 
relative to its lethal effects, our exercise today may result 
in chaos averted, lives saved and prove to be one small step 
for common sense.
    So thank you, Mr. Chairman, for your leadership on this, 
and I yield back.
    Chairman Berman. The time of the gentleman has expired. 
Does any member seek recognition?
    [No response.]
    Chairman Berman. Hearing no further amendments, I ask 
unanimous consent the amendment in the nature of a substitute 
is amended to H.R. 4801, the Global Science Program and 
Security, Competitiveness and Diplomacy Act of 2010, is 
considered adopted, and I move that the bill as amended be 
reported favorably to the House. All those in favor say aye.
    [Chorus of ayes.]
    Chairman Berman. All those opposed, say no.
    [Chorus of noes.]
    Chairman Berman. In the opinion of the chair the ayes have 
it, and the motion is agreed to. Without objection, the staff 
is authorized to make any technical and conforming changes.
    I thank all the members on both sides for participation, 
and the committee hearing markup is adjourned.
    [Whereupon, at 11:15 a.m. the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Faleomavaega statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Carnahan HR5139 deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Carnahan HR4801 deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
